                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




                We initiated an investigationbased on a request from the US Attorney's Office for assistance
         with an on-going multi-agency Qui Tam investigation of a company.' The Qui Tam complaint had
         been filed in 2005 and agents from other federal agencies had been working on allegations of
         duplication and time-card fraud. Since 2000, NSF had awarded 5 Phase I SBIR awards and 3 Phase
         I1 SBIR awards to the company. Initial review found no duplication between NSF and other
         agencies; however, duplication was identified in other agencies awards.

               The investigative team later focused on forged Phase I1 commitment letters for
         commercialization efforts. Forged Phase I1 commitment letters were found in other agencies awards.
         The NSF Phase I1 commitment letters were not forged.

                The US Attorney's Office decided to proceed with a civil action focused solely on the forged
         Phase I1 commitment letters to other agencies. The Assistant US Attorney's office presented its
         findings to the company's legal counsel. Negotiations are continuing between the US Attorney's
         Office and the company.

                   Since the US Attorney's Office is not taking action on NSF grants, this case is closed.




NSF OIG Form 2 (1 1/02)
